COMPUTER SECURITY
OF DELPHI FINANCIAL
MANAGEMENT SYSTEM
 Department of Transportation

  Report Number: FI-2003-094
Date Issued: September 30, 2003
                                                                                               2




           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Computer Security                        Date:    September 30, 2003
           of Delphi Financial Management System,
           Department of Transportation
           FI-2003-094

  From:    Alexis M. Stefani                                       Reply to    JA-20
                                                                   Attn. of:
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Acting Assistant Secretary for Budget and
            Programs/Chief Financial Officer

           This report presents the results of our audit of computer security over the
           Department of Transportation’s (DOT) new financial management system—
           Delphi. In 1997, DOT decided that its existing accounting system did not meet
           DOT’s need to properly account for resources and provide timely and reliable
           financial information to managers. DOT then embarked on an effort to acquire a
           commercial off-the-shelf financial management system that fully complied with
           Federal financial management and accounting requirements.

           The replacement system, known as Delphi, provides significantly improved
           financial management and reporting capabilities. For example, billions of dollars
           worth of accounting adjustments that had to be manually processed outside the old
           accounting system are now being processed by Delphi. DOT will be able to
           produce financial statements from Delphi directly. Financial management staff
           can also access Delphi for information with web design technologies. When fully
           implemented, Delphi will be used to account for over $50 billion of funds
           entrusted to DOT each year, including over $10 billion in contractor and employee
           payments.

           All DOT Operating Administrations (OA) have implemented Delphi, except the
           Federal Aviation Administration (FAA), which is scheduled to convert to the new
           system in October 2003. Delphi is maintained by FAA personnel at the Mike
           Monroney Aeronautical Center (Aeronautical Center) in Oklahoma City, under the
                                                                                                                           3

direction of the Office of the Secretary’s Office of Financial Management. The
system cost about $100 million to develop and deploy.

The objective of this audit was to determine whether Delphi is adequately secured
to ensure the integrity, confidentiality, and availability of its operations.
Specifically, we assessed the following control areas: (1) security planning to
ensure that Delphi security risks are properly assessed; (2) access security to
ensure Delphi files, documents, and facilities are accessible only to authorized
personnel with proper separation of duties; (3) system software settings to ensure
firewall, network, database, and transmission controls are adequate;
(4) configuration management controls to ensure that only authorized changes can
be made to Delphi; and (5) business continuity and contingency plans to ensure
the plans are adequate and have been tested.

The audit was conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States. Our audit scope and
methodology are discussed in Exhibit A.

DOT provided comments (see Appendix) to our August 29, 2003 draft report.
DOT concurred with all 5 findings and 17 recommendations in our report and has
initiated or completed corrective action for each recommendation.

RESULTS IN BRIEF

Delphi has significantly improved DOT’s ability to account for funds and to
generate financial information. However, DOT needs to enhance security and
controls of Delphi operations in order to achieve the full potential of the
replacement system. Specifically, we found that some DOT employees could
process unauthorized payments without being detected, and intruders could launch
attacks as “trusted parties1” through unsecured network connections.

We also determined that critical security measures, such as protecting sensitive
information from unauthorized disclosure, were not implemented or enforced. In
addition, changes made to Delphi were not properly tested and reviewed, which
could result in unauthorized program changes or system performance degradation.
Finally, contingency planning was not adequate to ensure continued Delphi
services in the event of a disaster.2


1
    “Trusted parties” are users who are granted access to DOT’s network or system resources that are not made available
    to the general public.
2
    For security reasons, specifics concerning the weaknesses and vulnerabilities we identified and our audit procedures
    are not discussed in this report, but were provided to DOT managers during the audit.
                                                                                      4

These deficiencies existed because DOT did not pay adequate attention to security
issues during the Delphi development process. Instead, the focus has been on
assisting OA conversion efforts and enabling OAs to use Delphi for financial
statement reporting. Our review showed that while the vulnerabilities uncovered
are significant, they are also correctable. To that end, DOT has initiated or
completed corrective actions on many of the deficiencies we identified. Continued
management attention will be required to complete the remaining corrective
actions and to provide ongoing assurance that security controls remain adequate to
protect sensitive information and resources from being compromised or lost.

Based on the existence and magnitude of these vulnerabilities, we conclude that
the control environment for Delphi operations must be improved. Accordingly,
when auditing DOT financial statements, auditors will need to perform additional
testing of financial transactions processed by Delphi.

• User Access Needs to Be Restricted to Ensure Payment and Financial
  Reporting Integrity. Controls over payment processing in Delphi were
  inadequate due to a lack of separation of duties. In financial systems, no single
  individual should be given the authority to both request and approve payment.
  However, we found 35 Delphi users were given authority to perform both
  payment request and approval functions without any management review.

   The number of users authorized to both request and approve payments could
   increase to about 100 when FAA converts to Delphi. Currently, 61 FAA
   employees have this authority to perform both functions, but the risk of
   unauthorized payments was mitigated by a customized system control in the
   old accounting system, which prohibited individuals from approving their own
   payment requests. In contrast, Delphi is largely a commercial off-the-shelf
   system and does not have the same customized control. Accordingly,
   separating payment request and approval functions must be enforced in Delphi
   to prevent one individual from both submitting and approving a transaction.
   Implementing this separation of duties would require realignment of job
   responsibilities in FAA accounting offices before the conversion.

   We also found that an excessive number of DOT and contractor employees at
   the Aeronautical Center were given system privileges that were not required to
   perform their duties. As a result of these privileges, about 200 support
   personnel could change accounting records without management approval or
   install malicious software code in Delphi that could result in service
   disruptions.

   In addition, over 400 Aeronautical Center employees had unsupervised
   physical access to the Delphi computer center, although about half were not
                                                                                                                         5

      responsible for Delphi operations. Once inside the computer center, these
      employees could cause disruptions by issuing special commands on operator
      consoles or sabotaging computer equipment.

      During our audit, we did not identify any specific incidents of unauthorized
      payments, accounting transactions, or software installations in Delphi. DOT
      management has started enforcing separation of payment request and approval
      functions at each OA and reducing system access assigned to support
      personnel. Continued management attention is required to complete corrective
      actions.

• Network Security Needs to Be Strengthened to Prevent Outside
  Intrusions. We found over 30 vulnerabilities on the 2 web sites through which
  Delphi receives transactions for processing. These vulnerabilities allowed
  intruders to access sensitive information that could be used to gain
  unauthorized access to, or launch attacks on, Delphi.

      We also found that the local area network at the Aeronautical Center was
      vulnerable to attack. Although the network was protected by firewall security3
      against intrusions from the Internet, it was accessible through other remote
      access mechanisms. We found over 120 unsecured telephone line (dial-up
      modem) connections to the network. With such connections, intruders could
      launch attacks as “trusted parties” to disrupt Aeronautical Center network
      operations. While these unsecured connections were not found on Delphi
      computers, they were threats to Delphi because Delphi has to rely on the
      Aeronautical Center network for communications support.

      DOT management has eliminated all vulnerabilities we identified on Delphi
      web sites and disconnected 35 unsecured dial-up connections. Action plans
      need to be developed and implemented to secure the remaining connections
      and to prevent recurrence of these problems.

• Security Controls Need to Be Enforced to Ensure Processing Integrity.
  We found that basic system controls were not implemented in Delphi. When
  compared with the old accounting system, Delphi lacked basic security
  controls such as implementing proper password configuration to prevent
  guessing, automatically deleting user accounts not used over a designated
  period of time, or systematically removing terminated employees from system
  access. These deficiencies existed partially due to a change in the system
  processing environment. Delphi operates on a stand-alone server, which

3
    While firewall security helps prevent unauthorized access to an organization’s private networks, it cannot protect
    public web sites from being attacked.
                                                                                   6

requires that security controls that are normally provided by a central security
function (as was provided for the old accounting system) must now be
performed by Delphi managers.

In addition, the following requirements in the Delphi security plan have not
been enforced.

Ø Protecting sensitive information. While most sensitive Delphi data are
  encrypted during transmission, we found incidents where employees’
  Social Security Numbers and purchase card information are transmitted
  over DOT networks in clear text and, if intercepted, can easily be copied.
  In addition, tens of thousands of employees’ Social Security Numbers
  stored in Delphi for the expense reimbursement process are not protected.
  Over 400 Delphi users can access this sensitive information, which reduces
  employee privacy and risks identity theft. Unless this information is
  properly protected, the magnitude of this exposure will increase
  significantly when FAA converts to Delphi.

Ø Ensuring integrity of system interfaces. We found little evidence to show
  that DOT has ensured that feeder systems, providing Delphi with detailed
  financial data, are secure. A critical security requirement for Delphi is that
  these feeder systems provide evidence of adequate security before being
  allowed to share information with Delphi. We found that three of eight
  feeder systems we selected for testing did not have any evidence of
  adequate security. While the other five had such evidence, only one
  provided it to Delphi management.

Ø Enforcing personnel accountability. We found that DOT did not hold
  individuals accountable for keeping Delphi secure. The Delphi Security
  Plan requires that DOT and contractor employees accept security
  responsibilities by signing “rules of behavior” documents before being
  given access to Delphi. Such rules include not sharing passwords with
  others and not disclosing sensitive information. We selected two OAs for
  review and found that one was not aware of, and the other did not
  consistently comply with, this requirement. As a result, management will
  not be able to hold employees and contractors accountable for security
  breaches.

Ø Conducting background checks. While background checks do not
  guarantee a person’s loyalty or trustworthiness, they provide valuable
  information to help management determine whether an employee should be
  given access to Delphi. We reviewed 14 individuals occupying sensitive
  positions, such as maintaining network security, and found that 8 (about
                                                                                                                    7

          57 percent) DOT and contractor employees have not received adequate
          background checks.

      These security deficiencies existed because the Delphi security administrator
      did not enforce security requirements specified by management. The
      administrator is four levels below the Director of Delphi operations at the
      Aeronautical Center and was focused on detailed administrative work such as
      processing user access requests.

      DOT is taking corrective actions such as enforcing proper password
      configuration and ensuring that all interfaces are adequately secured. To help
      improve security administration, DOT has now appointed a Delphi information
      system security officer who will report to a higher level of authority. DOT
      management needs to continue implementing security controls necessary in
      Delphi, such as using secure mechanisms to transmit sensitive information,
      protecting employee Social Security Numbers stored in Delphi, obtaining DOT
      and contractor employees’ signatures on the rules of behavior, and completing
      proper background checks on personnel occupying sensitive positions.

• System Changes Need to Be Better Controlled. While the Delphi team used
  a structured process to control system changes, we found that this process
  needed to be strengthened because testing was inappropriately performed on
  the production machine,4 key personnel were not involved in prioritizing
  change requests or assigning staff to review test results, and critical testing
  documents were not retained for future reference.

      System changes should be made, tested, and reviewed in a test environment,
      and only approved changes should be accepted and placed on the Delphi
      production machine. While Delphi development staff performed detailed
      testing on a test machine, they conducted the final testing, such as quality
      assurance testing, on the production machine. This arrangement resulted in
      two immediate concerns. First, problems experienced during testing could
      have an adverse impact, such as performance degradation or system crashes,
      on the Delphi production machine. Second, to ensure that only approved
      changes are implemented on the production machine, system development staff
      responsible for making program changes should not be allowed to access the
      production machine. This separation of duties did not exist for Delphi.

      Delphi had a Change Control Board (the Board) responsible for approving and
      prioritizing change requests and assigning personnel to review test results.

4
    The Delphi production machine is the computer that is used to process financial transactions submitted by DOT
    Operating Administrations.
                                                                                     8

   However, the Board was composed of only system development personnel at
   the Aeronautical Center without any OA user representation. As a result, DOT
   had limited assurance that Delphi incorporated only necessary changes
   requested by the users. Also, the Delphi security administrator was not
   involved to ensure that security was not negatively affected during a change.
   In one instance, password security was inadvertently degraded during a system
   change, but it was not detected for over 1 year until it was pointed out during
   our audit.

   While there was evidence that the Board reviewed and signed off on system
   changes, we found that test plans and results were not retained. Without such
   documentation, the Delphi team might experience additional difficulties when
   researching future system problems.

   As a result of our audit, DOT management has removed the test database from
   the Delphi production machine. However, further DOT management attention
   is needed to have OAs represented on the Change Control Board for reviewing
   Delphi change requests and test results, require the security administrator to
   ensure that security is not degraded during system changes, and develop a
   policy for retaining system change documents based on the criticality of the
   change.

• Contingency Plans Need to Be Enhanced and Tested. The April 2001
  Delphi contingency plan was not adequate to ensure continued payment and
  accounting operations in DOT in case of a major catastrophe at the
  Aeronautical Center. The plan called for using an on-site portable computer
  center as backup, which would not work if a disaster placed the entire
  Aeronautical Center out of service. We also identified the need for the
  Aeronautical Center to reduce its risk of losing major telecommunications
  lines. While these communication lines used different entry points into the
  Aeronautical Center, they converged in a single room before entering the data
  center. Losing this room would leave Delphi inaccessible to all OA users.

   During our audit, DOT management revised the Delphi contingency plan by
   selecting an off-site facility for recovery processing. DOT performed limited
   off-site tests on July 27 and September 7, 2003. However, management needs
   to develop a plan to eliminate converging major telecommunications lines in a
   single room at the Aeronautical Center.

We are making specific recommendations in this report to enhance computer
security over the Delphi system. These include recommendations to ensure
payment and reporting integrity in Delphi, reduce vulnerabilities to attack from
                                                                                        9

outside intruders, add basic security controls to Delphi, ensure integrity of
program changes in Delphi, and test contingency plans.

Management fully concurred with our findings and recommendations and, to its
credit, is taking corrective actions that, when fully implemented, will significantly
enhance the integrity, confidentiality, and availability of DOT financial operations.
These corrective actions are in various stages of implementation. In some
instances, DOT management has completed corrective actions such as revising
Delphi’s contingency plan for improved disaster recovery capability and
appointing a Delphi information system security officer who reports to a higher
level authority. All other recommendations are scheduled to be implemented by
December 2003.
                                                                                       10

FINDINGS AND RECOMMENDATIONS

A. User Access Needs to Be Restricted to Ensure Payment and
   Financial Reporting Integrity

DOT did not establish appropriate system access controls to protect financial
information stored in Delphi. Specifically, we found a lack of separation of duties
between requesting and approving payments in Delphi, and excessive system and
physical access granted to Aeronautical Center support personnel. As a result,
DOT employees and contractors could embezzle funds by processing unauthorized
payments, change accounting records without management approval, or install
malicious software code in Delphi. During our audit, we did not identify any
specific incidents of unauthorized payments, accounting transactions, or software
installations in Delphi.

Lack of Separation of Duties in the Payment Process

Controls over payment processing in Delphi were inadequate due to a lack of
separation of duties. In financial systems, no single individual should be given the
authority to both request and approve payments. However, we found 35 Delphi
users in 4 OAs and at the Aeronautical Center were given authority to perform
both payment request and approval functions without any management review.

The number of users authorized to both request and approve payments could
increase to about 100 when FAA converts to Delphi. Currently, 61 FAA
employees have authority to perform both functions. However, under the old
accounting system, the risk of unauthorized payments was mitigated by a
customized system control, which prohibited individuals from approving their own
payment requests. In contrast, Delphi is largely a commercial off-the-shelf system
and does not have the same customized control. Accordingly, separating payment
request and approval functions must be enforced in Delphi to prevent one
individual from both submitting and approving a transaction. Implementing this
separation of duties would require realignment of job responsibilities in FAA
accounting offices before the conversion.

Excessive System Access to Delphi by Support Personnel

We found that an excessive number of DOT and contractor employees at the
Aeronautical Center were given access to Delphi’s financial records or operating
system although such access was not required for their duties. As a result of this
access, 182 DOT and contractor employees responsible for Delphi operations at
the Aeronautical Center could change accounting records without OA approval or
                                                                                      11

install malicious software code in Delphi that could result in service disruptions.
Specifically, system support personnel could:

Ø Change accounting records. We found that 71 system support personnel could
  bypass detailed transaction processing controls and make direct changes to OA
  general ledger account balances. While some Delphi system support personnel
  may need to have such access for emergency adjustments, the access should be
  limited and monitored. For example, an exception report listing all changes
  should be provided to the OA for review.

   Also, 61 of these individuals could make changes to prior-year accounting
   records without management review and approval after the records have been
   closed. Once financial statements have been certified by auditors, they should
   be closed permanently. Any changes that need to be made should be processed
   as prior-year adjustments. As a result of these excessive access privileges,
   OAs had limited assurance of the integrity and accuracy of their financial
   records.

Ø Change operating system software. We found that the majority (111 out of
  122) of Delphi technical support personnel were inappropriately granted access
  to the operating system that is used to control Delphi operations. This
  excessive access presented a risk because these individuals could install
  malicious software code that could result in disruptions to the Delphi system.

   Equally important, we found that 5 of the remaining 11 individuals that had
   legitimate needs to access the Delphi operating system were arbitrarily deleting
   the audit trails of their access activities. This prevented management from
   holding these users accountable for changes made to the Delphi operating
   system.

Excessive Physical Access to the Delphi Computer Center

Only personnel responsible for performing technical work, such as monitoring
computer operations or maintaining hardware, should be given unsupervised
access to the computer center. However, we found that over 400 Aeronautical
Center employees were granted unsupervised physical access to the Delphi
computer center, even though most of these individuals were not responsible for
ongoing operations or maintenance of the computer equipment in the center.
Many of these individuals, such as 91 security guards and 40 building
maintenance staff, only needed to enter the computer room occasionally, and
therefore should be given temporary access, when needed.
                                                                                       12

Once inside the computer center, these employees could cause disruptions by
issuing special commands on operator consoles or by simply sabotaging computer
equipment. When compared with other computer centers, physical access security
at the Aeronautical Center was inadequate. For example, U.S. Coast Guard’s main
computer center houses more systems than the Aeronautical Center, but
unsupervised access was granted to less than one-third of those allowed for the
Delphi computer center.

As a result of our audit, DOT management has started enforcing separation of
payment request and approval functions at each OA and reducing privileged
access assigned to support personnel. Continued management attention is required
to complete corrective actions.

RECOMMENDATIONS

We recommend that the Acting Assistant Secretary for Budget and
Programs/Chief Financial Officer direct the Office of Financial Management to:

   1. Separate the payment request and approval authority for the 35 employees
      who currently have authority to do both, ensure that FAA follows the same
      separation of duties guidelines before it converts to Delphi, and install a
      process to ensure the separation of request and approval authority.

   2. Determine which of the 71 system support personnel at the Aeronautical
      Center require privileged access to Delphi accounting records, eliminate
      privileged access for the remainder, and implement an exception report
      listing transactions made by personnel who retain this access for OA
      management review.

   3. Eliminate all unnecessary access to Delphi’s operating system for the
      remaining support personnel we identified at the Aeronautical Center.

   4. Establish procedures that require audit trails of user access to the operating
      system be kept for a certain period of time and periodically reviewed by
      management.

   5. Reduce the number of staff granted unsupervised physical access to the
      computer center to a small group of personnel responsible for operating and
      maintaining the computer equipment in the center.
                                                                                13

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

DOT has completed action on recommendations 1 and 5, and expects to complete
action on recommendations 2, 3, and 4 by December 2003. The actions taken and
in process are responsive to the recommendations.
                                                                                     14

B.    Network Security Needs to Be Strengthened to Prevent
      Outside Intrusions

We found that Delphi web servers were not securely configured to prevent
unauthorized access by non-DOT personnel. In addition, people outside DOT
could access the Aeronautical Center network, which supports Delphi
communication operations, without going through firewall security checks. As a
result, intruders could make unauthorized changes to the Delphi system or disrupt
its communication services.

Delphi Web Sites Unsecured

Delphi receives transactions through two web sites—one is accessible through the
Internet and the other is accessible through DOT’s internal networks. Through
these Delphi web sites, users can make inquiries, request payments, or update fund
accounting records in the Delphi database. If not properly configured, these web
sites could allow unauthorized access to Delphi.

By using a commercial scanning tool, we identified over 30 vulnerabilities on the
Delphi web sites. These vulnerabilities could allow intruders to bypass Delphi
security checks and make unauthorized changes to the Delphi database by
executing remote commands. These weaknesses occurred because Delphi’s web
sites were not properly configured as recommended by the National Institute of
Standards and Technology and the software manufacturer, such as replacing
vendor-supplied passwords with individual passwords.

DOT management has eliminated all vulnerabilities we identified and is working
with the software manufacturer to ensure proper configuration of Delphi web sites.

Aeronautical Center Network Vulnerable to Remote Access

The Aeronautical Center provides the network infrastructure supporting Delphi
communication operations. If the network is disrupted, Delphi will be out of
service. Although the Aeronautical Center network was protected by firewall
security against intrusions from the Internet, it was not protected from other
remote access mechanisms.

By using a commercial software tool, we found 124 unauthorized telephone line
connections (known as dial-up modems), which could allow individuals located
outside of DOT to make connections with Aeronautical Center computers without
going through firewall security. Once connected, intruders could launch attacks as
“trusted parties” to disrupt Aeronautical Center network operations. For example,
                                                                                    15

by using these dial-up connections, we were able to connect to and execute
commands on these computers from outside of DOT.

Only 11 of the 124 dial-up modems required password authentication, and none of
them used the call-back mechanism to validate the calling source, as required by
DOT policy. At the time we identified the 124 dial-up modems, DOT
management was not aware of their existence and did not have a procedure in
place to authorize the use of modems. While these unsecured dial-up connections
were not directly associated with Delphi, they presented a threat to Delphi
operations because Delphi relies on the Aeronautical Center network for
communications support.

The Aeronautical Center management has completed its review of all dial-up
modems we identified and disconnected 35 of them. Currently, DOT is
determining appropriate actions for the remaining modems.

RECOMMENDATIONS

We recommend that the Acting Assistant Secretary for Budget and
Programs/Chief Financial Officer direct the Office of Financial Management to:

   1. Verify that Delphi web sites are securely configured, and periodically
      inspect the Delphi web configuration to prevent recurrence of
      vulnerabilities on Delphi web sites.

   2. Complete corrective actions on the remaining dial-up connections.

   3. Establish a process to control the use of dial-up modems in accordance with
      DOT policy.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

DOT has completed action on recommendation 1 and expects to complete action
on recommendations 2 and 3 by December 2003. The actions taken and in process
are responsive to the recommendations.
                                                                                       16

C.    Security Controls Need to Be Enforced to Ensure
      Processing Integrity

We found that basic system security controls were not implemented in Delphi.
For example, users were allowed to select short, simple passwords that could be
easily guessed; unused user accounts were not removed; and access was not
automatically removed when an employee was terminated.                  In addition,
requirements specified in the Delphi security plan to protect sensitive information;
ensure system interface integrity; and require personnel accountability and
background checks were not enforced. As a result, DOT did not have adequate
assurance about the integrity and confidentiality of information processed in
Delphi.

Lack of Basic System Controls
Delphi lacked basic system controls that had been in place in the old accounting
system partially due to a change in the system processing environment. While the
old accounting system operates in a shared mainframe environment equipped with
a central security management function, Delphi operates in a dedicated server
environment. This transition imposed additional responsibilities on Delphi
management for security implementation. We found the following basic system
controls were missing in Delphi.

Ø Password configuration control. Password controls are generally considered a
  system’s first line of defense against unauthorized access. According to DOT
  policy, passwords are required to contain at least eight alpha-numeric
  characters to prevent easy guessing. However, this control did not exist in
  Delphi. For example, during our Delphi testing, we were able to construct
  passwords with only three characters, which could easily be cracked by a
  hacker.

Ø Automatic time-out. Systems such as Delphi should automatically disconnect a
  user after a specified period of inactivity, such as 15 minutes. Without this
  control, unauthorized users can access unattended computers to process
  fraudulent transactions. This is evidenced by an embezzlement in recent years
  where an employee was able to use his supervisor’s computer, while
  unattended, to approve fraudulent payment requests in the old accounting
  system.

Ø Disabling unused accounts. While user accounts not used for 90 days are
  suspended in Delphi, they can be re-activated no matter how long the accounts
  have stayed inactive. Once an account reaches 180 days of inactivity, the
  account is not likely to be needed and should be removed to prevent
  unauthorized use.
                                                                                      17


Ø Removing terminated employees' access. The old accounting system has the
  ability to match terminated employee records reported by the personnel system
  with a list of authorized users and remove their access. However, the Delphi
  system has no systematic way to remove the access of terminated Federal
  employees. As a result, we found that four employees still retained access to
  Delphi after termination from DOT.

DOT is taking corrective action to establish proper password configuration.
However, DOT needs to continue implementing the remaining basic system
controls such as disconnecting inactive sessions, deleting inactive user accounts,
and systematically removing terminated employees’ access to Delphi.

Delphi Security Requirements Not Enforced

Agencies are required to perform periodic Certification and Accreditation (C&A)
reviews to determine whether a computer system is adequately secured
commensurate with the associated risks. The C&A review starts with a risk-based
security plan detailing security requirements needed for the system. While such a
plan has been developed for Delphi, we found that the following requirements in
the Delphi security plan are not enforced.

Ø Protecting sensitive information. We found that access to the Social Security
  Numbers and purchase credit card information was not restricted to people
  who had a legitimate need to know. Over 35,000 employees’ Social Security
  Numbers and 678 Government-issued purchase card numbers are stored in
  Delphi for the expense reimbursement process. Currently, over 400 Delphi
  users can view all DOT employees’ Social Security Numbers stored in the
  system. This not only reduces employee privacy but also increases the risk of
  identity theft. Unless corrective action is taken, the magnitude of this exposure
  will increase significantly as a result of FAA’s conversion to Delphi, which
  will more than double the volume of sensitive information.

   In addition, while most Delphi information is encrypted during transmission,
   we found incidents where employee Social Security Numbers and purchase
   card information were transmitted over DOT networks in clear text and, if
   intercepted, could easily be copied.
                                                                                        18


Ø Ensuring integrity of system interfaces. Delphi interfaces with over 30 feeder
  systems, which provide Delphi with detailed financial data such as payroll
  expenses or grant obligations. These interfaces account for $42 billion in
  financial processing each year. A key security requirement for Delphi is that
  these feeder systems provide evidence of adequate security in the form of C&A
  documentation. C&A reviews are used to determine whether the system is
  adequately secured. In addition, the owner of each system interfacing with
  Delphi is required to sign a memorandum of agreement specifically
  documenting that their system is secure.

      These requirements are critical to ensure Delphi’s own processing integrity.
      For example, in an August 30, 2002 memorandum, Delphi management stated
      that any feeder system not complying with these security requirements would
      be disconnected from Delphi. To verify compliance with this requirement, we
      judgmentally selected eight major interfacing systems for review. We found
      that three of eight feeder systems did not have any evidence of adequate
      security. Equally important, there is no action plan to ensure that these three
      systems obtain such evidence in a timely manner to continue their interfaces
      with Delphi. While the other five had such evidence, only one provided it to
      Delphi management. DOT management needs to obtain security evidence
      from feeder systems or disconnect their interface with Delphi by
      October 31, 2003.

Ø Enforcing personnel accountability. Delphi’s security plan requires that
  employees and contractor personnel accept security responsibilities (rules of
  behavior) before being given access to Delphi. These rules of behavior inform
  users of their security responsibilities such as non-disclosure of passwords and
  proper handling of sensitive information. Rules of behavior also serve as a
  contract allowing management to hold users accountable in case of a security
  breach.

      We judgmentally selected 14 users from the Federal Transit Administration
      and the Federal Railroad Administration for review. We found that four of
      seven transit employees and all seven railroad employees had not signed rules
      of behavior. We further found that the railroad security administrator was not
      even aware of this security requirement.

Ø Conducting background checks. Background checks are key to ensuring
  adequate personnel security. While background checks provide no guarantee
  of a person’s loyalty or trustworthiness, they provide valuable information that
  might keep at-risk personnel from working on Delphi. DOT policy5 requires

5
    DOT Order 1630.2B, entitled “Personnel Security Management,” dated May 30, 2001.
                                                                                    19

   that key computer positions, such as network administrators, be designated as
   high risk and receive a higher level background check, called Background
   Investigation.

   We judgmentally selected 14 individuals occupying sensitive positions,
   including network and database administrators, and found as shown in the table
   below, that 8 (about 57 percent) employees and contractor personnel did not
   receive Background Investigations.

                   Background Checks on Sensitive Positions
                                                Employees Needing a
                           Total Employees
         Sensitive                                  Background
                                Tested
         Positions                                  Investigation
                         Federal Contractor Federal Contractor
         Network
                            1           6          1            2
         Administrators
         System
                            0           5          0            3
         Programmers
         Database
                            1           0          1            0
         Administrators
         Security
                            1           0          1            0
         Officer
                            3          11          3            5
         Totals
                                  14                      8

   These individuals served as the first line of defense for Delphi security. For
   example, network administrators are responsible for network firewall security.
   System programmers essentially controlled all aspects of Delphi system
   operations. However, they did not receive proper background checks
   commensurate with the sensitivity of their positions.

These deficiencies existed because the Delphi security administrator did not
enforce security requirements. The administrator was four levels below the
Director of Delphi operations at the Aeronautical Center, and was focused on
detailed administrative work such as processing user access requests.

To help with the duties of security administration, DOT has now appointed a
Delphi information system security officer who will report to a higher level of
authority. However, DOT management needs to continue implementing security
controls necessary in Delphi, such as using secure mechanisms to transmit
sensitive information, protecting employee Social Security Numbers stored in
Delphi, obtaining DOT and contractor employees’ signatures on the rules of
behavior, and completing proper background checks on personnel occupying
sensitive positions.
                                                                                     20

RECOMMENDATIONS

We recommend that the Acting Assistant Secretary for Budget and
Programs/Chief Financial Officer direct the Office of Financial Management to:

   1. Enhance basic system controls such as establishing password configuration
      controls, disconnecting users for inactivity during Delphi computer
      sessions, disabling user accounts not used over a specified time period, and
      systematically removing terminated employees’ access to Delphi.

   2. Restrict access to employee Social Security Numbers and purchase card
      information stored in Delphi to people with a legitimate need to know, and
      use secure mechanisms to transmit sensitive information on DOT networks.

   3. Obtain evidence that all Delphi feeder systems are adequately secured from
      their system owners, or disconnect their interfaces by October 31, 2003.

   4. Obtain signed rules of behavior documents from all Delphi users, or
      terminate their access by September 30, 2003.

   5. Complete Background Investigations on the eight employees we identified.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

DOT has completed action on recommendation 4, and expects to complete action
on recommendations 1, 2, 3, and 5 by December 2003. The actions taken and in
process are responsive to the recommendations.
                                                                                     21

D. System Changes Need to Be Better Controlled

While the Delphi team used a structured process to control system changes, we
found that change controls were not adequate in Delphi. Specifically, we found
that testing was inappropriately performed on the production machine, key
personnel were not involved in reviewing test results from system changes, and
testing documents were not retained for future reference. As a result, DOT has
limited assurance that only authorized changes were made to the system.

Testing Work Performed on the Production Machine

System changes should be made, tested, and reviewed in a test environment, and
only approved changes should be accepted into production. While Delphi system
support staff performed detailed testing on a test machine, we found that they
conducted quality assurance testing and stress testing on the production machine.
Problems experienced during testing could have an adverse impact on the Delphi
production machine. For example, stress testing could cause the production
system to experience performance degradation or a system crash.

Also, to ensure that only approved changes are implemented in production, system
development staff responsible for making program changes should not be allowed
to access the production machine. By allowing system development staff to
perform testing work on the production machine, management had limited
assurance that only authorized program changes were made.

Key Personnel Not Involved in the Change Control Process

An important principle in change control is ensuring that end-user needs are
appropriately addressed when making changes to the system. Delphi had a
Change Control Board (the Board) responsible for approving and prioritizing
change requests, and assigning personnel to review test results. However, the
Board was composed of only system development personnel at the Aeronautical
Center without any OA user representation. As a result, DOT has limited
assurance that changes requested by users are adequately considered for Delphi.
OA managers also expressed concerns that OAs were not being represented on the
Board and that their changes were not given sufficient priority.

Also, the Delphi security administrator was not involved in the change control
process. As a result, there was little assurance that Delphi security would not be
impacted during the change. For example, in one instance, password controls
were set to a lower level on the test machine to facilitate program changes during
an upgrade in October 2001. However, the controls were not reset to an
acceptable level before the upgrade was installed on the production machine. The
                                                                                      22

lower level of Delphi security controls was not detected for over 1 year, until
pointed out during our audit.

Testing Documents Not Retained

We judgmentally selected 10 System Change Requests completed in the past
1-year period and reviewed the documentation supporting the modification and
testing process. While there was evidence of Board review and sign-off on system
changes, we found that test plans and results were not retained for these requests.

Delphi management explained that the test plans and results were destroyed
because of limited file storage space. Delphi management relied on approvals
recorded in the tracking system as evidence of adequate testing. However, without
these records, the Delphi team might experience additional difficulties when
researching future system problems. DOT needs to ensure that test documents
supporting critical changes are retained.

As a result of our audit, DOT management has removed the test database from the
Delphi production machine. However, continued management attention is needed
to have OAs represented on the Change Control Board for reviewing Delphi
change requests and test results, require the security administrator to ensure that
security is not degraded during system changes, and develop a policy for retaining
system change documents based on the criticality of the change.

RECOMMENDATIONS

We recommend that the Acting Assistant Secretary for Budget and
Programs/Chief Financial Officer direct the Office of Financial Management to:

   1. Include key personnel, such as the security administrator and OA user
      representatives, on the Delphi Change Control Board to review and
      prioritize change requests.

   2. Issue guidance for retaining test plans and results of system changes based
      on the criticality of the change.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

DOT has completed action on recommendation 1 and expects to complete action
on recommendation 2 by December 2003. The actions taken and in process are
responsive to the recommendations.
                                                                                       23

E. Contingency Plans Need to Be Enhanced and Tested

We found that the April 2001 contingency plan for Delphi was not adequate to
ensure timely restoration of services for continued operations. Also, Delphi
operations were vulnerable to telecommunications service disruptions at the
Aeronautical Center. As a result, should Delphi operations experience service
disruptions, it was unclear when the operation could be restored.

DOT Order H1350.254, entitled "Guide to Continuity of Operations Planning,"
requires OAs to restore critical DOT operations in case of a disruption of services.
However, the Delphi contingency plan was not adequate to ensure continued
payment and accounting operations at DOT. The plan called for use of
on-site portable trailers containing computer hardware and electrical generators.
This plan was not adequate in case of a major catastrophe at the Aeronautical
Center because it would not be able to provide support, such as
telecommunications, to these trailers. The plan should have included an off-site
facility that provides for computer and telecommunications equipment necessary
for a quick recovery of Delphi services.

We also found that the Aeronautical Center is at risk of losing all
telecommunications lines, which would render Delphi inoperable. While these
major telecommunications lines used different entry points into the Aeronautical
Center, they converged in one room before entering the data center. If a failure
occurred in this room, such as a fire, all telecommunications to the data center
would be lost. Consequently, OA users would not be able to access Delphi to
process payment requests or record accounting transactions.

During our audit, DOT management revised the Delphi contingency plan by
selecting an off-site facility for recovery processing. DOT performed limited
off-site tests on July 27 and September 7, 2003. However, management needs to
develop a plan to eliminate converging major telecommunications lines in a single
room at the Aeronautical Center.

RECOMMENDATIONS

We recommend that the Acting Assistant Secretary for Budget and
Programs/Chief Financial Officer direct the Office of Financial Management to:

   1. Conduct a comprehensive system recovery test by September 30, 2003.

   2. Develop and implement a plan to eliminate converging major
      telecommunications lines in a single room at the Aeronautical Center.
                                                                              24



MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

DOT has completed action on both recommendations 1 and 2. The actions taken
are responsive to the recommendations.
                                                                                  25

ACTION REQUIRED

Actions taken and planned by DOT are reasonable. These issues are resolved,
subject to the follow-up requirements in DOT Order 8000.1C. Therefore, no
further response is required.

We appreciate the courtesies and cooperation of DOT and the Operating
Administrations' representatives. If you have questions concerning this report,
please call me at (202) 366-1992 or Ted Alves, Assistant Inspector General for
Financial and Information Technology Audits, at (202) 366-1496.

                                      #
                                                                                     26


EXHIBIT A. SCOPE AND METHODOLOGY
We used the General Accounting Office’s Federal Information Systems Controls
Audit Manual as a guide for this audit. Our review covered 12 DOT organizations
using Delphi during our audit period.

We reviewed and analyzed Delphi’s security plan, system change control
procedures, interface control process, web configuration, firewall security rules,
and contingency plan. We performed detailed analysis of system access privileges
assigned to about 1,500 users, including system support personnel and OA users.
We physically inspected environmental control systems such as fire extinguishers,
physical access controls, backup power systems, and the backup file storage site.

We performed hands-on testing of Delphi password security and protection of
sensitive information. We also judgmentally selected 10 system change requests,
14 personnel background checks, and 14 users’ acceptance of security
responsibilities for detailed review. We conducted interviews with key Delphi
support personnel at the Aeronautical Center and OA users at DOT Headquarters.

In addition, we used various automated tools to test Delphi web and network
security. By using commercial scanning software, we performed a vulnerability
assessment on Delphi web sites, firewall security, and selected computers. We
also used an automated tool to identify unauthorized telephone line connections
(dial-up modem) to the Aeronautical Center networks. After identifying these
dial-up modems, we made a manual effort to connect to them from outside of
DOT and verified if these modems used password authentication or a call-back
mechanism.

Our audit work was performed between November 2002 and July 2003 at FAA’s
Mike Monroney Aeronautical Center at Oklahoma City, Oklahoma, and DOT
Headquarters in Washington, D.C. The audit was conducted in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.
                                                                27


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

  THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


   Name                     Title

   Phil deGonzague          Project Manager

   Ping Sun                 Senior Computer Scientist

   James Mallow             Senior Auditor

   Henry Lee                Computer Scientist

   Brad Kistler             Information Technology Specialist

   Jean Ablutz              Information Technology Specialist
                                                                                             27
APPENDIX. MANAGEMENT COMMENTS




                                              September 12, 2003


MEMORANDUM TO:                Theodore P. Alves
                              Assistant Inspector General for Financial
                                and Information Technology Audits

                              Rebecca C. Leng
                              Deputy Assistant Inspector General for
                                Information Technology and Computer Security
                               (original signed by A. Thomas Park)
FROM:                     for Phyllis F. Scheinberg
                              Acting Assistant Secretary for Budget and
                                Programs/Chief Financial Officer

SUBJECT:                      Draft Report on Computer Security and Controls
                              Of Delphi Financial Management System,
                              DOT Project Number 03F3002F0000


Thank you for the draft report of your audit on computer security and controls for Delphi, the
new financial management system that DOT is currently implementing. We appreciate the
help your staff provided in identifying computer security and control issues so that we can
ensure that Delphi fully implements and maintains effective security and controls.

We have worked closely with your staff during the review and as you noted in your report,
as soon as issues have been raised we have taken immediate action to mitigate risks and to
strengthen Delphi security and controls. Major corrective actions we have taken to enhance
Delphi security and controls in response to your audit include:

§   Implemented a Disaster Recovery site at the Federal Aviation Administration (FAA)
    Great Lakes Regional Office and conducted two successful disaster recovery tests with
    your staff’s participation.

§   Developed and implemented a Compatibility Matrix to ensure appropriate Separation
    of Duties for all Roles and Responsibilities assigned to Delphi users.

§   Established and automated Rules of Behavior as part of the Delphi sign-in script.

§   Reduced the number of users with system access and with physical access to the Systems
    Maintenance Facility, the data center at the Mike Monroney Aeronautical Center.
                                                                                                                28


§     Reviewed and eliminated all Web vulnerabilities.

§     Submitted requests for upgrading the background level investigations for the remaining
      Delphi system administrators.

§     Established the Delphi Management Committee composed of representatives from the
      Operating Administrations (OAs) to guide operations and enhancements to the system.

§     Enhanced the System Change Request process to provide the OAs with greater input
      on proposed system enhancements and the priorities for accomplishing them.

Attached is a spreadsheet that provides more details on all the corrective actions we are taking
and have completed to address the recommendations in your draft audit report.

The Oracle Federal Financials software used by Delphi provides extensive security features
and controls, as described by Oracle security experts who met with your staff earlier this year.
We are working with the Chief Information Officer’s staff to renew the Certification and
Accreditation of Delphi and to ensure that all feeder systems have been properly Certified
and Accredited.

We look forward to continuing to work with your staff to enhance Delphi security and controls
further as the system continues to evolve beyond the implementation phase. Please refer any
questions to Larry Neff of the DOT Office of Financial Management at (202) 366-2335.


Attachment1

cc:
Dan Matthews
Lisa Schlosser
Lindy Ritz
Robert Stevens
Keith Burlison
Keith Nelson
Cheryl Rogers
Laura Ramoly
Mike Myers
A. Thomas Park
Larry Neff
Kean Miller




1
    For security reasons, the Attachment, which provided specifics on DOT’s corrective actions, is not included in
    this report.


APPENDIX. MANAGEMENT COMMENTS
